LEGAL PRINTERS,

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

November 14, 2019
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE:

ALAINA ADKINS AND MAXIM HEALTHCARE SERVICES, INC. V. JESSE MICHAEL
COLLENS

Dear Sir or Madam:
As a member of the Supreme Court Bar I hereby certify that at the request of
counsel for the Petitioners, on November 14, 2019, I caused service to be made
pursuant to Rule 29 on the following counsel for the Respondent:
RESPONDENT:
Michael T. Stehle, Esq.
Law Office of Michael Stehle, PC
1200 R. Street, Suite B
Anchorage, AK 99501
Mstehle.stehelaw@gmail.com
907.677-7877

Jeffrey M. Feldman
Summit Law Group
315 5th Avenue South, #1000
Seattle WA 98104
jeff@summitlaw.com
907.229-1620

Susan Orlansky
Reeves Amodio LLC
500 L Street, Suite 300
Anchorage AK 99501
susano@reevesamodio.com
907.222.7117
This service was effected by depositing three copies of a Petition for a Writ of
Certiorari in an official “first class mail” receptacle of the United States Post Office as
well as by transmitting digital copies via electronic mail.
Sincerely,
Arthur D. Chotin, Esq.
Principal

